           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


           H-1B WORKERS’
       USE OF SOCIAL SECURITY
              NUMBERS


    September 2011   A-08-11-11114




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

    Conduct and supervise independent and objective audits and
       investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
       operations.
      Review and make recommendations regarding existing and proposed
       legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
       problems in agency programs and operations.

   To ensure objectivity, the IG Act empowers the IG with:

    Independence to determine what reviews to perform.
    Access to all information necessary for the reviews.
    Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                                 SOCIAL SECURITY
MEMORANDUM

Date:      September 7, 2011                                                           Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   H-1B Workers’ Use of Social Security Numbers (A-08-11-11114)


           OBJECTIVE
           Our objective was to assess H-1B workers’ use of Social Security numbers (SSN).

           BACKGROUND
           Each year, the Department of State (State) issues thousands of H-1B visas for
           temporary workers. Employers use the H-1B visa program to employ foreign workers in
           jobs that require theoretical or technical expertise in a specialized field. Specialty
           occupations include, but are not limited to, architect, engineer, computer programmer,
           accountant, doctor, and college professor. An individual in H-1B status may only work
           for his/her sponsoring employer after approval by the Departments of Labor and
           Homeland Security (DHS). The original period of admission for an H-1B nonimmigrant
           is 3 years, with optional extensions that cannot exceed 3 additional years. Appendix B
           includes additional background information.

           Under the Social Security Act, the Social Security Administration (SSA) assigns SSNs
           to all nonimmigrants, including H-1B workers, who enter the United States with work
           authorization. 1 To obtain an SSN, H-1B workers must provide SSA acceptable proof of
           age, identity, and lawful alien status/current authority to work. 2 Wages and
           compensation paid to H-1B workers for services performed are generally taxable and
           reportable on a Wage and Tax Statement (Form W-2). 3 SSA posts reported earnings to
           its Master Earnings File. 4


           1
               Social Security Act § 205(c)(2)(B)(i)(I), 42 U.S.C. § 405(c)(2)(B)(i)(I).
           2
               SSA, POMS, RM 10210.020(B) (effective March 3, 2011).
           3
            Internal Revenue Service, Publication 519, U.S. Tax Guide for Aliens, Chapter 2 and SSA, POMS,
           RM 01105.003C.2 (effective January 17, 1997).
           4
               SSA, POMS, RS 01404.003A.1 (effective April 1, 2010).
Page 2 - The Commissioner


To accomplish our objective, we identified a population of 38,546 nonimmigrants to
whom SSA had assigned original SSNs based on evidence they were H-1B workers
from January 1 through December 31, 2007. From this population, we randomly
selected a sample of 200 records to assess H-1B workers’ use of SSNs. Appendix C
includes a detailed description of our scope and methodology, and Appendix D includes
our sample results.

A recent DHS study 5 reported that about 21 percent of the H-1B petitions it examined
involved fraud or technical violations. The types of fraud identified included counterfeit
or forged documents, storefront or shell businesses, no bona fide job offer, and
misrepresentation of H-1B status. As such, DHS clarified field guidance and instituted
employer site visits to reduce fraud and abuse in the H-1B visa program. 6 Additionally,
the Department of Justice pursued criminal charges in multiple H-1B fraud cases. In
one case, six individuals pled guilty to participating in a criminal conspiracy with the
owner of a consulting firm to defraud the United States by obtaining H-1B visas for
ineligible or unqualified individuals. All six individuals admitted they had secured
cash-paying jobs from unapproved employers instead of working for the consulting firm.
In another case, U.S. Immigration and Customs Enforcement agents arrested
11 individuals accused of H-1B visa fraud. This investigation involved companies that
did not always have jobs available for H-1B workers, which placed the workers in
non-pay status after they arrived in the United States. These companies and workers
also allegedly submitted false statements and documents to support their H-1B visa
petitions. Because the subject of this report involves immigration enforcement and
visa-related issues, we plan to share our report with the DHS and State Offices of
Inspector General.

RESULTS OF REVIEW
Based on the results of our review, we estimate about 7,131 (18 percent) of the
38,546 H-1B workers to whom SSA assigned an SSN in 2007 may have used their
SSNs for purposes other than to work for their approved employer. This estimate
includes about 4,433 (11 percent) H-1B workers who had posted wages during our audit
period from an employer other than their DHS-approved employer. This estimate also
includes about 2,698 (7 percent) H-1B workers who had no posted wages from
2007 through 2009. To enhance SSN integrity, we believe SSA should contact DHS to
offer to establish a data match agreement to assist DHS’ efforts to identify and reduce
the number of H-1B workers who may use their SSNs for purposes other than to work
for their approved employer.


5
 U.S. Citizenship and Immigration Services, Office of Fraud Detection and National Security, H-1B
Benefit Fraud & Compliance Assessment, p. 15, September 2008.
6
 H-1B Visas: Designing a Program to Meet the Needs of the U.S. Economy and U.S. Workers: Hearing
Before The House Committee on the Judiciary, Subcommittee on Immigration Policy and Enforcement,
    th
112 Cong. (2011) (written testimony of Donald Neufeld, Associate Director, Service Center Operations
Directorate, U.S. Citizenship and Immigration Services).
Page 3 - The Commissioner


SOME H-1B WORKERS MAY HAVE USED SSNs FOR PURPOSES OTHER THAN
TO WORK FOR THEIR APPROVED EMPLOYERS

Of the 38,546 H-1B workers to whom SSA assigned an SSN from January 1 through
December 31, 2007, we estimate SSA assigned about 7,131 (18 percent) to H-1B
workers who may have used their SSNs for purposes other than to work for their
approved employer. This estimate includes H-1B workers who had posted wages
during our audit period from an employer other than their DHS-approved employer
(unapproved employer), and those who had no posted wages from 2007 through 2009.

We identified 23 instances in which H-1B workers had posted wages from unapproved
employers during our audit period. Based on these findings, we estimate about
4,433 (11 percent) of the 38,546 H-1B workers to whom SSA had assigned an SSN in
2007 had posted wages from unapproved employers. Although we acknowledge that
an H-1B worker can change employers, the new employer must file a petition with DHS
to change previously approved employment. However, DHS had no record that the new
employers had filed petitions on behalf of these H-1B workers. As such, some of these
H-1B workers may have violated their H-1B status. Although most H-1B workers had
posted wages from employers that appeared to be in fields associated with technical or
specialty occupations, we identified one H-1B worker who had earnings from a
restaurant and janitorial service.

We also identified 14 instances in which H-1 B workers had no posted wages from
2007 through 2009. Based on these findings, we estimate about 2,698 (7 percent) of
the 38,546 H-1B workers to whom SSA assigned an SSN in 2007 had no posted wages
from 2007 through 2009. To determine why some H-1B workers did not have wages
posted to their earnings record, we attempted to contact their employers. Six employers
we contacted told us the H-1B worker never worked for their organization, although they
acknowledged they were the sponsoring employer. For example, one employer told us
his company decided not to employ the H-1B worker after finding the individual did not
meet the position requirements during orientation. In addition, three employers told us
they had no record of the H-1B workers, although DHS records indicated they were the
sponsoring employers. Despite numerous attempts, we were unable to contact five
employers. These scenarios help explain why some H-1B workers in our sample had
no earnings posted to their SSA records.

We also contacted personnel at the four field offices that were among the top offices in
processing H-1B worker SSN applications to learn about their experiences with H-1B
workers. Field office personnel told us H-1B workers should have wages posted to their
earnings records because they are coming to the United States to work. However, one
field office manager told us that some H-1B workers acknowledged they would not
receive wages in the United States, because their employers would pay them in their
home countries. This scenario raises the question of whether all H-1B workers need
SSNs if their employers do not report wages. The field office manager also told us her
office had concerns about some H-1B workers who admitted they planned to work for
an employer other than the authorized employer listed on their visa.
Page 4 - The Commissioner


OPPORTUNITY TO REDUCE SSA’s RISK FROM H-1B WORKERS WHO MAY USE
THEIR SSNs FOR PURPOSES OTHER THAN TO WORK FOR THEIR APPROVED
EMPLOYERS

Unauthorized work by H-1B workers weakens SSN integrity and may require that the
Agency pay future benefits to individuals who misuse an SSN to work in the United
States. In addition, H-1B workers who do not work for their approved employers could
pose a risk to homeland security because they may obtain employment in sensitive
areas.

SSA has an opportunity to enhance SSN integrity and reduce its risk from H-1B workers
who misuse their SSNs. We believe SSA should contact DHS to offer to establish a
data match agreement to assist DHS’ efforts to identify and reduce the number of H-1B
workers who may use their SSNs for purposes other than to work for their approved
employer. In today’s environment, it is increasingly important that agencies share
information to prevent abuses of government programs.

CONCLUSION AND RECOMMENDATION
Based on the results of this audit, we estimate that thousands of H-1B workers may
have used their SSNs for purposes other than to work for their approved employers.
While we recognize SSA is not responsible for immigration enforcement, unauthorized
work by nonimmigrants impacts the Agency by weakening SSN integrity. We recognize
there is no easy way to fix this problem. However, we believe SSA has an opportunity
to help address unauthorized work by nonimmigrants. Accordingly, we recommend that
SSA contact DHS to offer to establish a data match agreement to assist DHS’ efforts to
identify and reduce the number of H-1B workers who may use their SSNs for purposes
other than to work for their approved employer.

AGENCY COMMENTS
SSA agreed with our recommendation. The Agency’s comments are included in
Appendix E.




                                       Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Background
APPENDIX C – Scope and Methodology
APPENDIX D – Sample Results
APPENDIX E – Agency Comments
APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                             Appendix A

Acronyms
DHS      Department of Homeland Security
FY       Fiscal Year
H-1B     Classification for a Nonimmigrant Temporary Worker
POMS     Program Operations Manual System
SSA      Social Security Administration
SSN      Social Security Number
State    Department of State
U.S.C.   United States Code
USCIS    United States Citizenship and Immigration Service
                                                                                                 Appendix B

Background
The computer-related occupation group had the largest number of H-1B petitions from
Fiscal Years (FY) 2007 through 2009, as shown in Figure B-1.

               Figure B-1: H-1B Petitions Approved by Major Occupation Group
                                       (FYs 2007-2009)
                                                 Computer-related                      48%
                                                         Education          11%
                           Architecture, Engineering and Surveying          10%
                                      Administrative Specializations        9%
                                               Medicine and Health          7%
                                                              Other          15%

                                                                       0%          50%       100%
                                                                                   1
             Source: U.S. Citizenship and Immigration Services (USCIS)

As shown in Figure B-2, the largest percentages of approved petitions for H-1B workers
for FYs 2007 through 2009 were born in India and China.

                   Figure B-2: H-1B Petitions Approved by Country of Birth
                                      (FYs 2007-2009)


                     29%
                                                                                       India
                                                                                       China
                                                                                       Canada
                                                               51%
                                                                                       Phillippines
                    3%                                                                 Korea
                                                                                       Other Countries
                      4%
                         4%
                                 9%

                             2
            Source: USCIS

1
 USCIS, Characteristics of Specialty Occupation Workers (H-1B), Fiscal Year 2008, Annual Report,
October 1, 2007-September 30, 2008, p. 11, May 1, 2009 and USCIS, Characteristics of H-1B Specialty
Occupation Workers, Fiscal Year 2009 Annual Report, October 1, 2008-September 30, 2009, p. 11,
April 15, 2010.
2
    Id. at p. 6.
                                                                        Appendix C

Scope and Methodology
To accomplish our objective, we

•   reviewed pertinent sections of the Social Security Administration’s (SSA) policies
    and procedures, applicable laws, and regulations;

•   reviewed prior reports issued by the Department of Homeland Security and
    Government Accountability Office;

•   obtained a data extract of 38,546 original Social Security numbers assigned to
    individuals with H-1B visas in the Modernized Enumeration System Transaction
    History File’s evidence field (based on evidence recorded by field office staff during
    the Social Security number application process) from January 1 through
    December 31, 2007 and randomly selected a sample of 200 records from our data
    extract;

•   reviewed Numident records and analyzed Detailed Earnings Queries for
    2007 through 2009;

•   contacted the Departments of Homeland Security and State to obtain information on
    the approved employer and status of selected H-1B workers in our sample. We did
    not assess the accuracy of their records;

•   contacted selected SSA field offices to discuss H-1B enumeration issues; and

•   attempted to contact employers to determine why some H-1B workers did not have
    wages posted to their SSA earnings record.

Our review of internal controls was limited to gaining an understanding of wages posted
in the Master Earnings File. We performed our audit at the Office of Audit in
Birmingham, Alabama. The data were sufficiently reliable to meet our objective.

The SSA entity audited was the Office of the Deputy Commissioner for Retirement and
Disability Policy. We conducted this performance audit from February through
May 2011 in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe the evidence obtained provides a reasonable
basis for our findings and conclusions based on our audit objective.
                                                              Appendix D

Sample Results

       Table D-1: Sample Results and Projection of H-1B Workers’ Posted
                    Wages/Earnings for 2007 Through 2009


                          Sample Attribute Appraisal

 Total Population of Original Social Security numbers (SSN)
 Assigned to H-1B Workers from January 1 Through                      38,546
 December 31, 2007
 Sample Size                                                               200
 Number of Instances in Sample Where H-1B Workers May
 Have Used Their SSN for Purposes Other Than Working for                    37
 Their Approved Employer
                                Attribute Projections
 Number of Instances in Sample Where H-1B Workers Had
                                                                            23
 Posted Wages from Unapproved Employers
 Estimate of Instances in Population Where H-1B Workers
                                                                          4,433
 Had Posted Wages from Unapproved Employers
 Projection-Lower Limit                                                   3,083
 Projection-Upper Limit                                                   6,123
                                Attribute Projections
 Number of Instances in Sample Where H-1B Workers Did
                                                                            14
 Not Have Posted Wages for 2007 Through 2009
 Estimate of Instances in Population Where H-1B Workers Did
                                                                          2,698
 Not Have Posted Wages for 2007 Through 2009
 Projection-Lower Limit                                                   1,653
 Projection-Upper Limit                                                   4,131

 Projections made at the 90-percent confidence level.
                  Appendix E

Agency Comments
                                         SOCIAL SECURITY

MEMORANDUM


Date:      September 7, 2011                                                       Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Dean S. Landis /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “H-1B Workers’ Use of Social Security Numbers”
           (A-08-11-11114)--INFORMATION


           Thank you for the opportunity to review the draft report. Please see our revised comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Frances Cord at (410) 966-5787.

           Attachment




                                                          E-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “H-1B WORKERS’ USE OF SOCIAL SECURITY NUMBERS”
(A-08-11-11114)

Recommendation 1

Contact DHS to offer to establish a data match agreement to assist DHS’ efforts to identify and
reduce the number of H-1B workers who may use their Social Security number (SSN) for
purposes other than to work for their approved employer.

Response

We agree. We maintain a close working relationship with the Department of Homeland Security
(DHS) and collaborate on a number of projects. We will contact DHS to offer our support in
DHS’s enforcement of its H-1B visa program.

However, we reject the contention that unauthorized work by nonimmigrants weakens SSN
integrity. As required by the law, we follow rigorous evidentiary and verification policies and
procedures before assigning SSNs and issuing Social Security cards to nonimmigrants.




                                               E-2
                                                                     Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kimberly A. Byrd, Director

   Jeff Pounds, Audit Manager

Acknowledgments

In addition to those named above:

   Kathy Yawn, Senior Auditor

   Joseph Cross, IT Specialist

For additional copies of this report, please visit our Website at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-08-11-11114.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
